No.

In The
Supreme Court of the United States

FMC CorporaTION,
Petitioner,

Vv.
SHOSHONE-BANNOCK TRIBES,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a
Writ of Certiorari in the above-referenced case contains 8,972 words, excluding the

parts of the petition exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 16, 2020.

By. FA am IL Fee

Gregory G. Garre
LATHAM & WaTKINS LLP
555 11th Street, NW
Suite 1000

Washington, DC 20004
(202) 637-2207
gregory.garre@lw.com

Counsel for Petitioner
